APPENDIX

CONTENTS
APPENDIX A: OPINION OF THE U.S. COURT OF
APPEALS FOR THE NINTH CIRCUIT ...................... 1a
APPENDIX B: ORDER OF THE DISTRICT COURT
GRANTING MOTION TO DISMISS .......................... 7a
APPENDIX C: RELEVANT STATUTORY PROVISION: 17
U.S.C. § 602. .................................................... 17a

1a
APPENDIX A:
OPINION OF THE U.S. COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED
OCT 21, 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

SUPERAMA CORPORATION, INC.,
DBA U.S.A. Sumo, a Nevada Corporation,
Plaintiff-Appellant,
v.
TOKYO BROADCASTING SYSTEM TELEVISION,
INC.; DOES, 1-100,
inclusive,
Defendants-Appellees.
No. 19-55981
D.C. No.
2:19-cv-03058-MWF-JC

2a
MEMORANDUM*
Appeal from the United States District Court
for the Central District of California
Michael W. Fitzgerald, District Judge, Presiding
Submitted October 8, 2020**
Pasadena, California
Before: M. SMITH AND LEE, Circuit Judges, and
CARDONE,*** District Judge.

Superama Corporation, Inc. (“Superama”) appeals
the district court’s grant of Tokyo Broadcasting System Television, Inc.’s (“TBS”) motion to dismiss for
lack of subject matter jurisdiction. We have jurisdiction under 28 U.S.C. § 1291, and we review de novo a
district court’s dismissal under Rule 12(b)(1) for lack
of subject matter jurisdiction. See M.S. v. Brown, 902
F.3d 1076, 1082 (9th Cir. 2018). Because the parties
are familiar with the facts, we do not recount them
This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
*

**

The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
The Honorable Kathleen Cardone, United States District
Judge for the Western District of Texas, sitting by designation.
***

3a
here, except as necessary to provide context to our ruling. We accept well-pleaded factual allegations of the
complaint as true and draw all reasonable inferences
in the plaintiff’s favor. See Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009); Bell Atl. Corp. v. Twombly, 550 U.S.
544, 555 (2007). We affirm.
Superama organizes the U.S. Sumo Open and
makes videos and photographs from the event
available on YouTube. TBS inquired about licensing
the footage for rebroadcasting on TV in Japan, but it
never obtained a license. Superama later discovered
that TBS had downloaded the copyrighted event
footage, materially altered it, and rebroadcasted it
throughout Japan — all without authorization.
Superama filed suit against TBS in the Central
District of California for direct copyright infringement
in violation of the Copyright Act, 17 U.S.C. §§ 501, et
seq. In its complaint, Superama does not allege that
the copyrighted footage was copied, reproduced,
transmitted, or distributed in the United States. The
district court granted TBS’s motion to dismiss for lack
of subject matter jurisdiction, finding that the alleged
infringing activity took place entirely in Japan.
Superama timely appealed, arguing that there is
subject matter jurisdiction because the downloaded
material was stored on servers in the United States.

4a
1. We have previously held that “the United States
copyright laws do not reach acts of infringement that
take place entirely abroad.” Subafilms, Ltd. v. MGMPathe Commc’ns Co., 24 F.3d 1088, 1098 (9th Cir.
1994) (en banc). This holding derives from the
longstanding rule that “[i]n general, United States
copyrights laws do not have extraterritorial effect, and
therefore, infringing actions that take place entirely
outside the United States are not actionable.” Id. at
1091 (internal citations omitted). Dismissal for lack of
subject matter jurisdiction was thus proper here, as all
alleged infringing activity took place outside of the
United States.
We have found subject matter jurisdiction where
an initial infringing act in the United States made
further infringement abroad possible. See L.A. News
Serv. v. Reuters Television Int’l, Ltd., 149 F.3d 987,
992 (9th Cir. 1998). Superama argues that jurisdiction
exists because copyrighted material was downloaded
from a United States server. But Superama cites no
case holding that a download occurs where material is
stored. Rather, because the infringing act of
downloading the material occurred on a computer
outside the United States, there was no act in the
United States to establish jurisdiction. We also will
not assume that some activity occurred in the United
States based only on Superama’s allegation that the
material might have been distributed outside of

5a
Japan. Thus, neither Subafilms nor L.A. News provide
support for subject matter jurisdiction.
Superama advances a highly technical argument
that infringement occurred in the United States
because an exact copy of the footage was made on
YouTube’s server before it was downloaded in Japan.
To advance this argument, Superama relies on Sega
Enters., Ltd. v. Accolade, Inc., 977 F.2d 1510, 1519
(9th Cir. 1992) (holding that intentionally copying
software code during reverse-engineering may be a
copyright violation) and MAI Sys. Corp. v. Peak
Comput., Inc., 991 F.2d 511, 518 (9th Cir. 1993)
(holding that unlicensed “copying” occurred when
copyrighted software was transferred from a storage
device to a computer in the United States). But neither
case establishes a rule that infringement occurs when
a download abroad automatically creates a copy of the
material on a United States server. There is thus no
basis for finding jurisdiction where downloaded
material is stored in the United States, but all
infringing activity takes place in another country.
2. Similarly, Superama’s reliance on the predicate
act doctrine is misplaced. Under that doctrine, a
plaintiff may recover damages for foreign
infringement when a predicate act of infringement
took place in the United States. See L.A. News, 149
F.3d at 991–92. But this doctrine is inapplicable here,
where the only asserted predicate act of infringement

6a
— the download of copyrighted material — occurred
outside of the United States. The district court’s
dismissal of Superama’s complaint for lack of subject
matter jurisdiction was therefore proper.
3. Finally, because Superama cannot plausibly
allege that any infringement occurred in the United
States, the district court did not abuse its discretion in
denying its request for leave to amend.
AFFIRMED.

7a
APPENDIX B:
ORDER OF THE DISTRICT COURT GRANTING MOTION
TO DISMISS
JS-6
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES--GENERAL
Case No. CV 19-3059-MWF (JCx)
Date: August 20, 2019
Title: Superama Corporation, Inc. v. Tokyo
Broadcasting System Television, Inc.
Present:

The Honorable Michael W. Fitzgerald,
U.S. District Judge
Deputy Clerk:
Rita Sanchez

Court Reporter:
Not Reported

Attorneys Present for the Plaintiff:
None Present
Attorneys Present for the Defendant:
None Present
Proceedings (In Chambers):
ORDER RE: MOTION TO DISMISS [23]
Before the Court is Defendant Tokyo Broadcasting
System Television, Inc.’s Motion to Dismiss (the
“Motion”), filed on July 15, 2019. (Docket No. 23).

8a
Plaintiff Superama Corporation, Inc. dba USA Sumo
filed an Opposition on July 19, 2019. (Docket No. 25).
Defendant filed a Reply on July 29, 2019. (Docket No.
26).
The Court has read and considered the papers on
the Motion, and held a hearing on August 12, 2019.
For the reasons set forth below, the Motion is
GRANTED. Plaintiff fails to establish that the Court
has subject matter jurisdiction over the action.
I.

BACKGROUND

The Complaint alleges the following facts, which
the Court takes as true and construes in the light most
favorable to Plaintiff. See, e.g., Schueneman v. Arena
Pharm., Inc., 840 F.3d 698, 704 (9th Cir. 2016)
(restating
generally-accepted
principle
that
“[o]rdinarily, when we review a motion to dismiss
under Federal Rule of Civil Procedure 12(b)(6), we
accept a plaintiff’s allegations as true ‘and construe
them in the light most favorable’ to the plaintiff”)
(quoting Zucco Partners, LLC v. Digimarc Corp., 552
F.3d 981, 989 (9th Cir. 2009)).
Plaintiff USA Sumo is a sports and events
coordination organization dedicated to facilitating the
growth of the sport of sumo in the United States.
(Complaint (“Compl.”) ¶ 2 (Docket No. 1)).

9a
On May 12, 2018, Plaintiff held its hallmark
competition, the US Sumo Open, in Long Beach,
California, which resulted in the creation of videos and
photographs of the event at the direction of USA Sumo
(the “Copyrighted Work”). (Id. ¶¶ 5, 17, 19). Since the
creation of the Copyrighted Work, Plaintiff has
published, distributed, advertised, publicly displayed,
and sold copies of the Copyrighted Work in the United
States. (Id. ¶ 5). Plaintiff owns a federal registration
of the Copyrighted Work per submission on February
13, 2019. (Id. ¶ 6). The material was available for
viewing on USA Sumo’s website and on its Youtube
channel, but not for download. (Id. ¶ 4).
On January 17, 2019, Defendant inquired with
Plaintiff as to potentially licensing some of the
Copyrighted Work for rebroadcast on television
throughout Japan. (Id. ¶ 22). Plaintiff provided
Defendant with a licensing fee quote, which detailed
the costs for reproducing a highly limited portion of
the Copyrighted Work, but Defendant did not respond
to the quote. (Id. ¶¶ 23-24). Instead, on January 26,
2019, “it became apparent that [Defendant] had
downloaded the entire footage of ‘2018 US Sumo Open
– Best Matches with Commentary,’ without
knowledge consent or permission, from Youtube and
then, edited it down and produced a 125 second
‘segment’ which it then rebroadcasted throughout
[Japan] . . . .” (Id. ¶ 25). Defendant also materially

10a
altered the Copyrighted Work, without permission,
with Japanese titles and text. (Id.). Plaintiff is also
“informed and believes and thereupon alleges that the
program may have been seen outside of the country of
Japan as well.” (Id. ¶ 26). The broadcast was not
authorized by and no payments were made to
Plaintiff. (Id.).
Plaintiff commenced this action on April 19, 2019,
asserting four claims for relief: (1) direct copyright
infringement, 17 U.S.C. §§ 501, et seq.; (2) inducement
and contributory infringement; (3) unjust enrichment;
and (4) conversion. (Id. ¶¶ 27-48). After stipulation by
the parties, Plaintiff’s Third and Fourth Claims for
Relief were dismissed with prejudice. (Docket No. 19).

II.

DISCUSSION

“Although the defendant is the moving party in a
motion to dismiss brought under Rule 12(b)(1), the
plaintiff is the party invoking the court’s jurisdiction.
As a result, the plaintiff bears the burden of proving
that the case is properly in federal court.” Brooke v.
Kashl Corp., 362 F. Supp. 3d 864, 871 (S.D. Cal. 2019)
(citing McCauley v. Ford Motor Co., 264 F.3d 952, 957
(9th Cir. 2001)). A jurisdictional attack under Rule
12(b)(1) may be “facial or factual.” Safe Air for
Everyone v. Meyer, 373 F.3d 1035, 1039 (9th Cir.
2004). In a facial attack, the complaint’s allegations
must be accepted as true. Id. But “in a factual attack,

11a
the challenger disputes the truth of the allegations
that, by themselves, would otherwise invoke federal
jurisdiction.” Id. In that case, facts tending to prove or
disprove jurisdiction “are not afforded presumptive
truthfulness.” Young v. United States, 769 F.3d 1047,
1052 (9th Cir. 2014)
As a preliminary matter, Plaintiff argues that
Defendant improperly relies on an attorney
declaration in support of the Motion, which Plaintiff
argues impermissibly goes beyond the four corners of
the pleadings. (Opp. at 1-2). However, the Court does
not rely on the declarations submitted in support of
the Motion. The Court would reach the same rulings
regardless of whether it considered them.
Plaintiff also argues that the Motion should be
dismissed for failure to meet and confer in good faith
because Defendant failed to rebut Plaintiff’s citation
to Liberty Media Holdings, LLC v. Vinigay.com, No.
CV-11-280-PHX-LOA, 2011 WL 7430062 (D. Ariz.
Dec. 28, 2011). (See Opp. at 3). Plaintiff argues that
“Defendant ignored everything the Plaintiff said
concerning the unlawful download from U.S. based
servers and ignores Ninth Circuit reasoning which
supports the exception to the rule of extraterritoriality
thereby, making the meet and confer process illusory
and meaningless.” (Id. at 5).

12a
Plaintiff misunderstands the purpose of the meet
and confer requirement. “The purpose of the [meet and
confer] requirement is to encourage settlement,
resolve disputes which need not involve the Court, and
avoid unnecessary litigation, thus saving the parties’,
the court’s, and the taxpayers’ limited time, money,
and resources.” Aniel v. GMAC Mortg., LLC, No. C 1204201 SBA, 2013 WL 2467929, at *1 (N.D. Cal. June
7, 2013) (quoting Wong v. Astrue, No. C 08-02432 SBA,
2008 WL 4167507, at *2 (N.D. Cal. Sept. 8, 2008)). The
Court does not expect the parties to be able to resolve
every issue during a meet and confer session such that
a motion is no longer necessary. Accordingly,
Plaintiff’s argument is not well taken.
Defendant argues that Plaintiff’s copyright
infringement claims must be dismissed for lack of
subject matter jurisdiction because “all of the alleged
infringing activity took place entirely in Japan.” (Mot.
at 4). Defendant explains that “[t]he footage at issue
was placed on a computer in Japan and broadcast
through [Defendant’s] network in Japan, to people in
Japan.” (Id.). Therefore, Defendant argues, “none of
the alleged acts of infringement are subject to United
States copyright law.” (Id.).
The Ninth Circuit has long recognized that “the
United States copyright laws do not reach acts of
infringement that take place entirely abroad.”
Subafilms, Ltd. v. Mgm- Pathe Commc’ns Co., 24 F.3d

13a
1088, 1098 (9th Cir. 1994); see Blazevska v. Raytheon
Aircraft Co., 522 F.3d 948, 954 (9th Cir. 2008)
(confirming Subafilms’ holding that copyright
infringement in foreign distribution of films is not
actionable in the United States).
Plaintiff argues in its Opposition that the Court
has subject matter jurisdiction over the matter
because the first infringement “occurs when the bad
actor downloads material from the copyright holder’s
website.” (Opp. at 12). Plaintiff argues that “[t]he key
factor is the location of the server,” which in this case
was in California. (Id. at 13). Therefore, Plaintiff
contends, “the infringement took place initially in the
United States by the illegal downloading of
copyrighted work.” (Id.).
However, Plaintiff’s reliance on Liberty for its
argument is misplaced. Plaintiff cites Liberty for the
proposition that there is an “exception to the
territoriality rule for ‘targeting’ U.S. based
servers/websites.” (Id. at 2). In Liberty, however, the
district court held that defendants’ act of downloading
plaintiff’s videos “from Plaintiff’s web server in
Tampa, Florida for display, distribution, and copying
by Internet users in the United States and the rest
of the world[,] constitute acts of infringement that are
not wholly extraterritorial to the United States.”
Liberty Media Holdings, LLC, 2011 WL 7430062, at *5
(emphasis added). Furthermore, in finding that U.S.

14a
copyright law applied, the district court relied on other
cases
involving
allegations
that
defendants
distributed the alleged infringing material in the
United States. Id. (citing, inter alia, Shropshire v.
Canning, 809 F. Supp. 2d 1139, 1145 (N.D. Cal. 2011)
(“The Court finds that in this case, the alleged act of
direct copyright infringement – uploading a video from
Canada to YouTube’s servers in California for display
within the United States – constitutes an act of
infringement that is not ‘wholly extraterritorial’ to the
United States.”)).
The Court views IMAPizza, LLC v. At Pizza Ltd.,
334 F. Supp. 3d 95 (D.D.C. 2018) as persuasive
authority. There, the district court determined that it
is “not enough to allege domestic infringement” where
plaintiff “[did] not allege that Defendants downloaded
the images at issue to computers located in the United
States, merely that the pictures were downloaded
from U.S. servers.” Id. at 120 (emphasis in original).
The district court reasoned that a reproduction occurs
“where the unlawful ‘copy’ is made,” and that a “copy”
is made “where the receiving computer assembles the
transmitted information into a complete image that
can be ‘perceived.’” Id. In distinguishing Liberty, the
district court observed that Liberty involved a set of
facts “in which foreign defendants were alleged to
have distributed infringing works into the United

15a
States, where they were downloaded.” Id. (emphasis
added).
At the hearing, Plaintiff cited Columbia Pictures
Indus., Inc. v. Fung, 710 F.3d 1020, 1034 (9th Cir.
2013) for the proposition that “uploading and
downloading copyrighted material are infringing
acts.” Therefore, Plaintiff argued, because Defendant
“downloaded” the material from servers based in
California, the “download” occurred in California for
purposes of copyright infringement. The issue, then,
comes down to where a “download” occurs. As
explained above, the Court views the district court’s
consideration of this issue in IMAPizza, LLC as
persuasive authority. Because the allegation here is
that the material was downloaded from U.S. servers
to computers in Japan, the Court determines, similar
to the district court in IMAPizza, LLC, that this is
insufficient to allege domestic infringement of the
reproduction right under 17 U.S.C. § 106(1).
In light of the foregoing authority, the Court
determines that Plaintiff fails to meet its burden of
proving that the case is properly in federal court.
Therefore, the Court need not address Defendant’s
additional forum non conveniens argument.
Accordingly, the Motion is GRANTED.

16a
This Order shall constitute notice of entry of
judgment pursuant to Federal Rule of Civil Procedure
58. The Court ORDERS the Clerk to treat this Order,
and its entry on the docket, as an entry of judgment.
Local Rule 58-6.
IT IS SO ORDERED.

17a
APPENDIX C:
RELEVANT STATUTORY PROVISION: 17 U.S.C. § 602.
17 U.S.C. § 602. Infringing importation or exportation of copies or phonorecords
(a) Infringing importation or exportation.
(1) Importation. Importation into the United
States, without the authority of the owner of
copyright under this title, of copies or phonorecords
of a work that have been acquired outside the
United States is an infringement of the exclusive
right to distribute copies or phonorecords under
section 106, actionable under section 501.
(2) Importation or exportation of infringing items.
Importation into the United States or exportation
from the United States, without the authority of
the owner of copyright under this title, of copies or
phonorecords, the making of which either
constituted an infringement of copyright, or which
would have constituted an infringement of
copyright if this title had been applicable, is an
infringement of the exclusive right to distribute
copies or phonorecords under section 106],
actionable under sections 501 and 506.
(3) Exceptions. This subsection does not apply to—

18a
(A) importation or exportation of copies or
phonorecords under the authority or for the use
of the Government of the United States or of
any State or political subdivision of a State, but
not including copies or phonorecords for use in
schools, or copies of any audiovisual work
imported for purposes other than archival use;
(B) importation or exportation, for the private
use of the importer or exporter and not for
distribution, by any person with respect to no
more than one copy or phonorecord of any one
work at any one time, or by any person arriving
from outside the United States or departing
from the United States with respect to copies or
phonorecords forming part of such person’s
personal baggage; or
(C) importation by or for an organization
operated for scholarly, educational, or religious
purposes and not for private gain, with respect
to no more than one copy of an audiovisual work
solely for its archival purposes, and no more
than five copies or phonorecords of any other
work for its library lending or archival
purposes, unless the importation of such copies
or phonorecords is part of an activity consisting
of systematic reproduction or distribution,
engaged in by such organization in violation of
the provisions of section 108(g)(2).

19a
(b) Import prohibition. In a case where the making
of the copies or phonorecords would have constituted
an infringement of copyright if this title had been
applicable, their importation is prohibited. In a case
where the copies or phonorecords were lawfully made,
United States Customs and Border Protection has no
authority to prevent their importation. In either case,
the Secretary of the Treasury is authorized to
prescribe, by regulation, a procedure under which any
person claiming an interest in the copyright in a
particular work may, upon payment of a specified fee,
be entitled to notification by United States Customs
and Border Protection of the importation of articles
that appear to be copies or phonorecords of the work.

